December 28, 2001

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 Management Advisory - Review of Letter Contract with Titan Corporation
          (Report Number CQ-MA-02-001)

The Office of Inspector General is reviewing expedited contracts the Postal Service is
issuing to deal with the biohazard threat facing the mail, employees, and the public.
Our intent is to protect the interests of the Postal Service by making recommendations
as soon as we identify issues.

We reviewed the sole source letter contract the Postal Service awarded to the Titan
Corporation for over $34 million on October 26, 2001, for eight electron beam systems.
In addition, we reviewed Postal Service contracting requirements contained in the
Purchasing Manual. We also conducted preliminary benchmarking with the Department
of Defense and the Federal Emergency Management Agency to determine what
contracting procedures they use in emergencies. We conducted our review from
November through December 2001, in accordance with the President’s Council on
Integrity and Efficiency, Quality Standards for Inspections.

The Department of Defense indicated that in emergencies, it issues letter contracts that
include what it will pay for the item being purchased and the timing of delivery. Later,
when the contract is definitized, all standard contract clauses are included. Like the
Department of Defense, the Federal Emergency Management Agency does not waive
its standard contract clauses in emergencies. You should consider adopting similar
processes for emergency Postal Service contracts in the future. Management’s
comments, in their entirety, are included in the appendix of this report.

While we understand the need to expedite the purchase of equipment to protect the
mail, employees, and the public, we identified some contract provisions that deviated
from standard contract language or were omitted from the contract. We understand that
you definitized the letter contract November 8, 2001. However, to further protect the
interests of the Postal Service, we recommend the following actions for future expedited
contracts for irradiation equipment:




                                   Restricted Information
Review of Letter Contract with Titan Corporation	                                CQ-MA-02-001



Recommendations

1.	 Include the standard termination for convenience clause. A provision was included
    in the letter contract that required the Postal Service to pay the supplier a lump sum
    of $34 million if the letter contract was not definitized by November 8, 2001, or an
    agreed upon extension date, or if the Postal Service terminates the contract for
    convenience. These terms and conditions are potentially more expensive to the
    Postal Service than the normal liability, which would arise under the standard
    Purchasing Manual termination for convenience clause.

2.	 Include the standard payment procedure. A payment milestone schedule was
    specified in the letter contract that required the Postal Service to pay the supplier
    75 percent of the total cost of the equipment prior to substantial completion of
    equipment installation and final acceptance. Included in the 75 percent is an initial
    payment of 25 percent at contract award. Under standard purchasing procedures,
    the Postal Service is not required to make any payments until after final acceptance
    of commercial items.

3.	 Include the standard indemnification clause. A provision in the letter contract
    required that the supplier be indemnified and held harmless for all losses, damages,
    costs, and expenses except to the extent it is negligent or commits willful acts.
    Standard contract language in the Purchasing Manual not only holds the supplier
    liable for negligent or willful acts, but it also includes omissions by the supplier. The
    contract does not appear to hold the supplier responsible if the equipment does not
    meet Postal Service requirements or any other requirements mandated by law.

4.	 Include the pertinent penalty provisions. The letter contract omitted penalty
    provisions, such as liquidated damages, if the equipment does not perform as
    required.

5.	 Extend the warranty period as appropriate. The letter contract specified a one-year
    warranty period on the equipment. Due to the complexity and sophistication of the
    equipment, you should consider extending the warranty period depending on
    industry standards.

6.	 Include provisions requiring that supplier employees who provide on site
    maintenance and operational support possess the necessary skill levels to safely
    operate the equipment and handle biohazardous materials. The letter contract did
    not include this.

7.	 Consider obtaining independent verification that the supplier is giving the Postal
    Service its most favored prices and document the rationale for contract decisions.




                                                      2
                                           Restricted Information
Review of Letter Contract with Titan Corporation                              CQ-MA-02-001



Management's Comments

Postal Service management agreed with our recommendations and will attempt to use
standard contract clauses in future expedited contracts for irradiation equipment, with
the exception of the Purchasing Manual’s standard indemnification clause.
Management agreed to consider including standard clauses covering termination for
convenience and payment procedures in future expedited contracts. In addition,
management stated its preference is to use the standard indemnification clause.
However, management explained that Titan refused to agree to the inclusion of that
clause in the contract, and that other irradiation equipment suppliers have raised similar
objections.

Management agreed to consider including a credit remedy to compensate the Postal
Service for any equipment breakdown; an extended warranty period as appropriate; and
a requirement that supplier employees have the necessary skill levels to safely operate
the equipment and handle biohazardous materials in future contracts. Finally,
management agreed to obtain independent verification that the suppliers are providing
the Postal Service their most favored prices, and to document its rationale for contract
decisions.

Evaluation of Management's Comments

Management’s comments were responsive to our findings and recommendations. We
believe the actions taken and planned address the issues identified in our report. We
also believe management’s response about whether to include standard indemnification
clauses in future irradiation equipment contracts is reasonable because Titan and other
suppliers may not otherwise contract with the Postal Service. In the future, we may
review the impact, if any, of the Postal Service using non-standard indemnification
clauses.

Management stated the Postal Service used approved waivers in the case of the Titan
contract due to the unusual and compelling nature of the situation. Postal Service
management has definitized line item 001 of the Titan contract for the purchase of the
electron beam systems. Contract line items 002 and 003 for maintenance, diagnostic,
and on-site operational support requirements will be definitized in the near future.
Management agreed to include a requirement in those line items that Titan employees
must have the necessary skill levels to safely operate the equipment and handle
biohazardous materials. Also, management will include a credit remedy in the
definitized contract to compensate the Postal Service for financial loss due to
operational interruptions caused by any breakdowns of the irradiation equipment.

We commend management for awarding the Titan contract so quickly given the
extraordinary circumstances. We believe as the immediate threat subsides,
management has the opportunity to award contracts using standard contracting clauses
and procedures as much as possible.


                                                      3
                                           Restricted Information
Review of Letter Contract with Titan Corporation	                          CQ-MA-02-001



The OIG considers recommendation 3 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the
follow-up tracking system until OIG provides written confirmation that the
recommendation can be closed. We appreciate the cooperation and courtesies
provided your staff during the review. If you have any questions, please contact Kim H.
Stroud, director, Consulting and Quick Response, at (703) 248-2100, or me at (703)
248-2300.



Robert L. Emmons
Assistant Inspector General
 for eBusiness

cc: 	Richard J. Strasser, Jr.
     Susan M. Brownell
     John R. Gunnels




                                                      4
                                           Restricted Information
Review of Letter Contract with Titan Corporation                    CQ-MA-02-001



                     APPENDIX. MANAGEMENT’S COMMENTS





                                                      5

                                           Restricted Information
Review of Letter Contract with Titan Corporation                    CQ-MA-02-001




                                                      6

                                           Restricted Information
Review of Letter Contract with Titan Corporation                    CQ-MA-02-001




                                                      7

                                           Restricted Information
Review of Letter Contract with Titan Corporation                    CQ-MA-02-001




                                                      8

                                           Restricted Information
Review of Letter Contract with Titan Corporation                    CQ-MA-02-001




                                                      9

                                           Restricted Information
